  Federal Communications
        Commission

Office of the Inspector General
 Semiannual Report to Con-
              gress
 April 1 -September 30, 2003




                     H. Walker Feaster III
                        Inspector General
                   Introduction
The Federal Communications Commission (FCC) is an independent
regulatory agency, which was delegated authority by Congress under
the Communications Act of 1934, as amended by the
Telecommunications Act of 1996. The FCC is charged with the
regulation of interstate and international communication by radio,
television, wire, satellite and cable. The FCC’s jurisdiction covers the
fifty states, the District of Columbia and all the U.S. possessions.
Under the Communications Act, the FCC is mandated to make rapid,
efficient, nationwide and worldwide wire and radio communication
service available to all people in its jurisdiction. The FCC performs four
major functions to fulfill this charge:

         •   Spectrum allocation
         •   Creating rules to promote fair competition and protect
             consumers where required by market conditions
         •   Authorization of service
         •   Enforcement

The Chairman and four Commissioners are appointed by the President
and confirmed by the Senate.

Michael K. Powell was designated Chairman on January 22, 2001.
Kathleen Q. Abernathy, Jonathan S. Adelstein, Michael J. Copps and
Kevin J. Martin serve as Commissioners. The majority of FCC
employees are located in Washington, D.C. FCC field offices and
resident agents are located throughout the United States. FCC
headquarters staff are located in the Portals II building located at 445
12th St., S.W., Washington, D.C. 20554.

The Office of Inspector General (OIG) dedicates itself to assisting the
Commission as it continues to improve its effectiveness and efficiency.
The Inspector General (IG), H. Walker Feaster III, reports directly to
the Chairman. The OIG staff consists of ten professionals and a
student intern. Principal assistants to the IG are: Thomas Cline,
Assistant Inspector General (AIG) for Audits; Thomas Bennett, AIG for
Universal Service Fund Oversight; Charles J. Willoughby, AIG for
Investigations; and Thomas M. Holleran, AIG for Policy and Planning.
Mr. Willoughby also serves as counsel.

                                    1
                   Introduction
This semiannual report includes the major accomplishments and
general activities of the OIG during the period of April 1, 2003 through
September 30, 2003.




                                    2
     Universal Service Fund
Oversight of the Universal Service Fund (USF)

Beginning with our semi-annual report for the period ending March 31,
2002, we have included a section on oversight of the Universal Service
Fund (USF).* We decided that it was necessary to highlight our efforts
to provide oversight of the USF to ensure that report recipients and
other constituents clearly understood our concerns about this program.
We have also used this section of the semi-annual report to discuss our
specific efforts to provide oversight and to identify obstacles to the
effective implementation of our oversight program.

I am pleased to report that we have continued to make progress
implementing oversight of the USF during this semi-annual reporting
period. In this semi-annual report, we provide a brief background on
our efforts implementing oversight of USF, an update on oversight
activity during the reporting period, and comments on those areas of
the program where we have concerns as a result of our involvement in
audits and investigations.

History of USF Oversight

Due to materiality and audit risk, we have focused much of our interest
on the USF mechanism for funding telecommunications and information
services for schools and libraries, also known as the “Schools and
Libraries Program” or the “E-rate” program. Pursuant to the
Telecommunications Act of 1996 (the Act), Congress directed the
Commission to create a universal service support mechanism for
schools and libraries (Schools and Libraries Program), which was
designed to ensure that all eligible schools and libraries have affordable
access to modern telecommunications and information services. On
May 7, 1997, the Commission adopted an order implementing the Act.
Up to $2.25 billion annually is available to provide eligible schools and
libraries with discounts for authorized services.

*The USF is generated through contributions from providers of interstate telecommunications, including
local and long distance phone companies, wireless and paging companies and pay phone providers. The
Universal Service Administrative Company (USAC) administers the USF under regulations promulgated by
the Federal Communications Commission (FCC).



                                                    3
   Universal Service Fund
Eligible schools and libraries may receive discounts on eligible
telecommunication services ranging from 20 percent to 90 percent,
depending on economic need and urban or rural location. The level of
discount is based upon the percentage of students eligible for the
National School Lunch Program or other federally approved alternative
mechanisms contained in the Improving America’s Schools Act.
Libraries use the discount percentage of the school district in which
they are located. Discounts can be applied to commercially available
telecommunications services, Internet access, and internal connections.
Eligible services range from basic local and long distance telephone
services and Internet access services to the acquisition and installation
of equipment for providing internal connections to telecommunications
and information services. Over 40,000 applications were submitted
during each of the program’s first five program years (1998 – 2002)
from schools and libraries in each of the 50 states, the District of
Columbia and most territories.

Although independent oversight of the USF program is the
responsibility of the FCC OIG, much of the oversight activity that has
been performed to date has been performed under the direction of the
Universal Service Administrative Company (USAC) and FCC
management as part of the oversight program that they have
established in accordance with Commission rules.

USAC Oversight

In 2000, USAC contracted with a public accounting firm to conduct
audits of eighteen (18) beneficiaries of funding from the first year of
the Schools and Libraries program that were identified as potentially
high-risk. E-rate disbursements to these beneficiaries totaled $134.6
million in the first year of the program. The report prepared by the
public accounting firm that conducted these audits was adopted by the
USAC Board of Directors on October 17, 2001. The audit report
disclosed weaknesses at many of the beneficiaries and questioned
approximately $8 million in funding disbursements. Several million
dollars in questioned disbursements will not be recovered due to a rule
waiver issued by the Commission and determinations of


                                    4
   Universal Service Fund
non-materiality. As of the end of this semi-annual reporting period,
USAC has recovered $280,362 in questioned disbursements resulting
from this audit. During October 2003, USAC issued recovery letters for
an additional $45,993. In addition to the audit findings, this audit
resulted in an investigation with representatives from the Federal
Bureau of Investigation (FBI) and Office of Inspector General lending
support. The matter has been referred as a civil false claims suit to the
Department of Justice where it remains under consideration.

In 2001, USAC contracted with a public accounting firm to conduct
audits at twenty-five (25) beneficiaries from the second and third
funding years. E-rate disbursements to these beneficiaries totaled
$322.0 million in the second and third funding years of the program.
The draft report prepared by the public accounting firm that conducted
these audits was dated May 31, 2002. The final report, including
responses from the USAC Schools and Libraries Division, was released
by the Schools and Libraries Committee of the USAC Board of Directors
on April 23, 2003. The audit report disclosed monetary findings at
fourteen (14) of the twenty-five (25) beneficiaries including $11.4
million dollars in inappropriate disbursements and unsupported costs.
In addition, the report identified findings at many of the beneficiaries
where there are no monetary findings. As of the end of this
semi-annual reporting period, USAC has recovered $1,927,579 in
inappropriate disbursements and unsupported costs and initiated
recovery actions for $1,353,741, of which $709,013 is under appeal.
During October 2003, USAC initiated recovery actions for an additional
$1,078,851. USAC has indicated that they will be issuing recovery
letters for an additional $6,980,290.

In December 2002, USAC established a contract with a public
accounting firm to perform agreed-upon procedures at a sample of
seventy-nine (79) beneficiaries from funding year 2000. The sample of
beneficiaries was selected by the OIG. In a departure from USAC’s two
previous E-rate beneficiary audits, the agreed-upon procedures being
performed under this contract will be performed in accordance with
both the Attestation Standards established by the American Institute of
Certified Public Accountants (AICPA) Standards and Generally Accepted


                                    5
   Universal Service Fund
Government Auditing Standards, issued by the Comptroller General
(GAS 1994 revision, as amended) (GAGAS). At the time that this
semi-annual reporting period ended, the public accounting firm had
completed their review at forty-two (42) of the seventy-nine (79)
beneficiaries and had prepared reports summarizing the results of
those reviews. The OIG is performing the procedures necessary to
determine the degree to which we can rely on the results of that work.
Many of the issues raised by this body of work are reflected in the
section addressing concerns with the E-rate program.

OIG Oversight

Despite limited resources, my office has implemented an aggressive
oversight program. Our oversight program includes: (1) audits
conducted using OIG and Commission resources; (2) audits conducted
by other federal Offices of Inspector General; (3) review of audit work
conducted by USAC; and (4) active participation in federal
investigations of E-rate fraud.

In October 2001, we obtained four (4) auditors from the Commission’s
Wireline Competition Bureau on a temporary detail. We provided a 2 ½
day training class to the detailed audit staff and initiated twenty-nine
(29) audits of E-rate beneficiaries. Unfortunately, during the course of
the audit process, some of the resources were diverted to support an
on-going criminal investigation. As a result, several of the audits that
had been planned were cancelled. Eight (8) of the audits that we
initiated have been completed and ten (10) of the audits are still in
progress. Shortly after we initiated our audits, we were advised by
federal law enforcement of an on-going investigation of a service
provider that had provided service to four (4) of the beneficiaries being
audited. Law enforcement authorities requested that we modify the
scope of our review at these beneficiaries and requested that we
perform the modified review at seven (7) additional beneficiaries that
were involved with the service provider being investigated. The results
of these eleven (11) modified scope reviews were forwarded in a
memorandum to federal law enforcement on February 3, 2003.




                                    6
   Universal Service Fund
In that memorandum, we identified monetary findings in the amount of
$584,605 related to missing equipment and over-billings for recurring
services.

On January 29, 2003, we executed a Memorandum of Understanding
(MOU) with the Department of the Interior (DOI) OIG. This MOU is a
three-way agreement among the Commission, DOI OIG, and USAC for
audits of schools and libraries funded by the Bureau of Indian Affairs
and other universal service support beneficiaries under the audit
cognizance of DOI OIG. Under the agreement, auditors from the
Department of the Interior will conduct audits of these beneficiaries for
USAC and the FCC OIG. In addition to audits of schools and libraries,
the agreement allows for the DOI OIG to consider requests for
investigative support on a case-by-case basis. In February 2003, we
provided a 2 day training class for Department of the Interior auditors
and provided subsequent training to DOI auditors and investigators
during March 2003. We are currently finalizing reports for eight (8)
reviews that were initiated by DOI OIG in FY 2003.

We have had numerous meetings with representatives from the
Department of Education (DOE) Office of Inspector General to discuss
areas of mutual interest including audits and investigations of
recipients of E-rate and federal education funding. In April 2003, the
DOE OIG initiated an audit of the use of federal education funding to
purchase equipment to make effective use of internal connections and
internet connectivity funding by E-rate at a large recipient. My office
has been providing support to this audit.

In March 2003, we signed a contract with a public accounting firm to
provide audit support services for USF oversight to the OIG. The first
task order that we established under this contract was for the
performance of those procedures necessary to determine the degree to
which we can rely on the results of audit work performed under USAC’s
contract with a public accounting firm. The OIG review team is
currently completing the task to verify that work was performed in
accordance with the AICPA and GAGAS
standards.


                                    7
    Universal Service Fund
In addition to conducting audits, we are currently providing audit
support to a number of investigations of E-rate recipients and service
providers. Our level of involvement in investigations ranges from
tracking and monitoring cases that are being investigated by state and
local law enforcement to actively providing audit support to the FBI and
Department of Justice (DOJ) investigators in the form of complete
audits and limited scope reviews. We are actively supporting
twenty-two (22) investigations and monitoring an additional thirteen
(13) investigations. Allegations being investigated in these cases
include the following 5:

         •   Procurement fraud - lack of a competitive process and bid
             rigging
         •   False Claims – Service Providers billing for goods and
             services not provided
         •   False Statements by Applicants and Service Providers
         •   Ineligible items being funded
         •   Beneficiaries not paying the local portion of the costs
             resulting in inflated costs for goods and services to the
             program and potential kickback issues

To implement the investigative component of our plan, we established
a formal working relationship with the Governmental Fraud Unit of the
FBI. In addition, we established a working relationship with the
Antitrust Division of DOJ. The Antitrust Division has established a task
force to conduct USF investigations comprised of attorneys in each of
the Antitrust Division’s seven (7) field offices and the National Criminal
Office.

Concerns about the E-rate Program

Since we became involved in USF oversight in 2000, we have devoted
considerable resources to oversight of this program, focusing primarily
on E-rate spending. We have conducted audits and evaluated the
results of audits conducted by others, supported numerous federal,
state, and local investigations, and examined the program for purposes
of planning effective oversight. I believe that the work that we have
performed provides us with a unique perspective on fraud, waste and

                                     8
    Universal Service Fund
abuse in the E-rate program. In my last three semiannual reports, I
have discussed aspects of the program where we have concerns as a
result of our involvement in audits and investigations. In some cases,
these concerns represent non-compliance with program rules. In other
cases, these concerns relate to areas of the program where
requirements have not been codified as program rules. The four areas
are as follows:

◊   Technology Planning

Program rules require that applicants prepare a technology plan and
that the technology plan be approved. The approved technology plan
is required to include a sufficient level of information to justify and
validate the purpose of a request for E-rate funding. USAC procedures
state that approved technology plans must establish the connections
between the information technology and the professional development
strategies, curriculum initiatives, and library objectives that will lead to
improved education and library services. Although the technology plan
is intended to serve as the basis for an application, we have observed
many instances of non-compliance with program rules and USAC
procedures related to the technology planning process. Four examples
of technology planning concerns identified during audits and
investigations are as follows:

         •   Applicants not preparing technology plans in accordance
             with program rules
         •   Technology plans not addressing all required plan elements
             in accordance with USAC guidelines for technology planning
         •   Technology plans not being reviewed and approved in
             accordance with program rules
         •   Applicants not being able to provide documentation to
             support the review and approval of technology plan
             (Although program rules require that applicants have a
             technology plan and that the plan be approved, the rules
             do not require that the applicant maintain specific docu-
             mentation regarding the approval process.)




                                     9
    Universal Service Fund
◊   Competitive Procurement

Program rules require that applicants use a competitive procurement
process to select vendors. In establishing this requirement, the
Commission recognized that “(c)ompetitive bidding is the most efficient
means for ensuring that eligible schools and libraries are informed
about all of the choices available to them” and that “(a)bsent
competitive bidding, prices charged to schools and libraries may be
needlessly high, with the result that fewer eligible schools and libraries
would be able to participate in the program or the demand on universal
service support mechanisms would be needlessly great.”

Applicants are required to submit a Form 470 identifying the products
and services needed to implement the technology plan. The Form 470
is posted to the USAC web page to notify service providers that the
applicant is seeking the products and services identified. Applicants
must wait at least 28 days after the Form 470 is posted to the web site
and consider all bids they receive before selecting the service provider
to provide the services desired. In addition, applicants must comply
with all applicable state and local procurement rules and regulations
and competitive bidding requirements. The Form 470 cannot be
completed by a service provider who will participate in the competitive
process as a bidder and the applicant is responsible for ensuring an
open, fair competitive process and selecting the most cost-effective
provider of the desired services. Further, although no program rule
establishes this requirement, applicants are encouraged by USAC to
save all competing bids for services to be able to demonstrate that the
bid chosen is the most cost-effective with price being the primary
consideration.

Although the program’s competitive bidding requirements were
intended to ensure that schools and libraries are informed about all of
the choices available to them, we have observed numerous instances in
which beneficiaries were not following the program’s competitive
bidding requirements or were not able to demonstrate that competitive
bidding requirements are being followed. Three examples of
competitive procurement concerns identified during audits and
investigations are as follows:

                                    10
    Universal Service Fund
         • Applicant did not follow program requirements for a
           competitive process with price as the primary determining
           fact
         • Applicant did not follow state and local procurement
           regulations
         • Applicant did not maintain documentation to demonstrate
           compliance with the programs competitive procurement
           requirement (Although program rules require that appli-
           cants follow a competitive process, the rules do not require
           that the applicant maintain specific documentation
           regarding the competitive process.)

Concerns related to the competitive process, or the lack thereof, are
frequently identified during support to investigations of E-rate fraud.
In fact, one (1) of the two (2) E-rate fraud cases that have resulted in
criminal indictments involved bid rigging. Several other cases that are
being investigated include allegations of procurement irregularities and
bid rigging.

◊   Discount Calculation and Payment of the Non-Discount
    Portion

The E-rate program allows eligible schools and libraries to receive
telecommunications services, Internet access, and internal connections
at discounted rates. Discounts range from 20% to 90% of the costs of
eligible services, depending on the level of poverty and the urban/rural
status of the population served, and are based on the percentage of
students eligible for free and reduced lunches under the National
School Lunch Program (NSLP) and other approved alternative methods.
Service providers are required to bill applicants for the non-discount
portion and applicants are required to pay the non-discount portion of
the cost of the goods and services to their service providers. In
establishing this requirement, the Commission recognized that
“(r)equiring schools and libraries to pay a share of the cost should
encourage them to avoid unnecessary and wasteful expenditures
because they will be unlikely to commit their own funds for purchases
that they cannot use effectively.” Further, the Commission recognized
that “(a) percentage discount also encourages schools and libraries to

                                   11
    Universal Service Fund
seek the best pre-discount price and to make informed, knowledgeable
choices among their options, thereby building in effective fiscal
constraints on the discount fund.” The discount rate calculation and
program requirement for payment of the non-discount portion are
intended to ensure that recipients avoid unnecessary and wasteful
expenditures and encourage schools to seek the best pre-discount rate.
Four examples of concerns identified during audits and investigations
are as follows:

         •   Applicant did not follow program requirements for discount
             rate calculation or is unable to support discount rate
             calculated
         •   Applicant did not pay the non-discount portion
         •   Applicant did not pay the non-discount portion in a timely
             manner (It should be noted that, although program rules
             require that applicants pay the non-discount portion, the
             rules do not establish a time frame in which the applicant
             must make payment.)
         •   Service providers did not bill recipients for the non-discount
             portion

◊   Delivery of Goods and Services

Site visits are conducted during most E-rate beneficiary audits. Site
visits are conducted for several reasons including to evaluate the
eligibility of facilities where equipment is installed, verify that
equipment is installed and operational, and to verify that equipment is
being used for its intended purpose. Five examples of concerns identi-
fied during audits and investigations are as follows:

         •   Goods and services not being provided
         •   Unauthorized substitution of goods and services (In some
             cases this is not an issue, e.g., substitutions are made with
             newer versions of products, however, in many cases
             products with significantly reduced functionality are
             substituted.)
         •   Goods and services being provided to ineligible facilities
             (e.g., non-instructional building including dormitories,

                                     12
   Universal Service Fund
            cafeterias, and administrative facilities)
        •   Goods and services not being provided to the facility for
            which the funding was requested
        •   Equipment not being installed or not operational (It should
            be noted that Commission rules do not require that
            equipment be operational.)

Management Issues

In addition to issues related to the E-rate program, we have continued
to explore issues related to efficient and effective management of the
fund. These issues include strengthening the nature of the relationship
between the Commission and USAC, addressing concerns of
Commission financial operations related to USF fund management, and
use of the USF to pay for the cost of OIG oversight.

USAC administers the USF at the direction of the Commission. Part 54
of Title 47 of the Code of Federal Regulations (47CFR54) defines the
relationship between the Commission and USAC. However, numerous
functions, particularly in the area of financial management and
oversight, are performed voluntarily by USAC under undocumented,
oral agreements. On September 26, 2003, the Commission adopted an
order amending Commission rules governing certain financial reporting
and auditing requirements applicable to the Universal Services Fund
and the Telecommunications Relay Services (TRS) Fund. The amended
rules require the Administrators of the Funds, including USAC, to
prepare financial statements for the Funds consistent with generally
accepted accounting principles for federal agencies (Federal GAAP) and
to keep the Funds in accordance with the United States Government
Standard General Ledger (USGSGL). In addition, the amended rules
require fund Administrators to conduct audits of the Funds pursuant to
generally accepted government auditing standards. This order
addresses some of the issues that have complicated financial
management and fund oversight. However, it is our opinion that fund
management could be further strengthened by continuing to formalize
the relationship between the Commission and USAC.

In addition to addressing the relationship between USAC and the

                                   13
   Universal Service Fund
Commission, we have been considering issues regarding financial
management of the USF. Based on our knowledge of USF financial
management matters, it is our opinion that fund management would
benefit from the additional control it would be afforded if it were
maintained in an account managed by the Department of the Treasury.

The last management issue relates to use of the fund to pay for the
cost of OIG oversight. Currently, the Commission does not have the
authority to use USF funds to pay for the FCC’s cost of administering
the fund, including the costs associated with providing oversight. In
my last three semi-annual reports, I have reported the lack of
resources as an obstacle to implementation of effective and
independent program oversight. While we are hopeful that
appropriated funding will be available in FY 2004, we remain convinced
that the best solution for ensuring that adequate resources for program
oversight are available would be accomplished by using the fund to pay
for OIG oversight. We believe that these issues should be explored
further. We will continue to encourage their consideration in
discussions with FCC management and other appropriate officials.

Conclusion

The Office of Inspector General remains committed to providing
effective oversight of the Universal Service Fund program. As we begin
FY 2004, we are continuing to implement the oversight program that
we have designed. The Commission’s FY 2004 budget estimate to
Congress included $3 million “to support the agency efforts to prevent
waste, fraud and abuse within Commission programs.” The
Commission’s Managing Director has advised us that all of this funding
is intended for USF oversight by the OIG. We anticipate using this
funding to have contract resources conduct an audit of a statistical
sample of E-rate funding recipients that will enable us to achieve both
attribute and variable estimation results (i.e., both percentage and
dollar value of improper payments identified during the audit process)
with a high degree of confidence. In addition, we intend to conduct
audits of selected funding recipients based on identified risks and other
criteria. We will also explore expanding our audit coverage to include
service providers (vendors of goods and services) that participate in

                                   14
   Universal Service Fund
the program, as well as the applicants (schools and libraries). In
addition to audits, we anticipate using contract resources to provide
audit support to a number of on-going investigations. To date, the OIG
has provided audit support to a number of these investigations with
OIG staff, detailed auditors, and in teaming arrangements with USAC
internal audit. The availability of appropriated funding for contractor
support will enable us to enhance our investigative support capability.
We are hopeful that we will be able to fully implement the oversight
program that we have designed during FY 2004. However, despite the
positive developments during this reporting period and the likelihood of
funding for this fiscal year, our position remains as we have previously
stated - until such time as resources and funding are available to
provide adequate oversight for the USF program, we are unable to give
the Chairman, Congress and the public an appropriate level of
assurance that the program is protected from fraud, waste and abuse.




                                   15
                            Audits

I. Financial statement audits provide practical assurance about
whether the financial statement of an audited firm shows the
financial position, results of operations, and cash flow in the
standards of generally accepted accounting principles. These
audits are used to decipher whether or not financial information
is presented according to established or stated criteria. These
audits also reveal if the firm’s internal control over financial
reporting and/or safeguarding assets is designed to adequately
fit the firm and if it is fully implemented to achieve the control
objectives.


Audit of the Commission’s FY 2003 Financial Statement


 The report(s) issued
 in conjunction with
 this annual audit will
 appear in our next
 semi-annual report,
 October 1, 2003
 through March 31,
 2004. For a detailed
 discussion of the status
 of this audit, see the
 Work-In-Process
 section, page 24.




                                16
                            Audits
II. Performance audits are systematic examinations of evidence
for the purpose of providing an independent assessment of the
performance of a government organization, program, activity or
function, in order to provide information to improve public
accountability and facilitate decision-making by parties with
responsibility to oversee or initiate corrective action.

Contract audits were initiated in fiscal year 2000 to ensure that the FCC
was receiving fair value in return for dollars expended. Virtually all
Commission contracts are primarily for labor. We randomly audit the
labor charging and timekeeping practices of contractors in order to
determine whether contractor personnel implement their policies and
procedures accurately and fairly. Labor must be accurately recorded
and distributed in a timely manner. Contract audits are performed to
ensure that contractors accurately accumulate, record and bill costs on
government contracts.

The FCC works with the Defense Contract Audit Agency (DCAA) to
ensure these objectives are met. DCAA performs unannounced floor
checks of contractor employees. DCAA auditors also collect timesheets
to make sure time is accurately charged, and interviews contractor
personnel. DCAA makes sure that employees know how to document
their time, that procedures for timekeeping are clear, and that the
system is continually verified and violations are remedied promptly.

1. Report on Audit of Labor Charging and Timekeeping
Practices of NOVA Technology, Inc. (Report 03-AUD-01-04), May
7, 2003

This audit disclosed that certain contractor labor practices require
corrective action to improve the reliability of the contractor’s labor
accounting system.

Floor checks, conducted in March 2003, revealed that employee
timesheets were not completed daily. One employee had not
completed his timesheet from the previous day and another employee
had not completed his timesheet the previous two days. It was also


                                     17
                           Audits
found that management does not monitor daily recording of labor hours
by employees.

These findings were discussed with NOVA Technology Inc.’s
Supervisory Auditor who agreed to remind all employees to complete
their timesheets on a daily basis and monitor the daily recording of
employees’ timesheets and notify them if they are delinquent.

2. Report on Audit of NOVA Technology, Inc. Billing System,
(Report 03-AUD-09-19), August 15, 2003

DCAA completed an audit of the internal controls of the billing system
used by NOVA Technology, Inc. to accumulate and bill costs under
government contracts.

The objective of this audit was to evaluate the compliance of NOVA’s
billing system with Federal Acquisition Regulations (FAR) and contract
requirements. The audit also sought to determine whether NOVA’s
system of billing controls is adequate to provide billed costs that are
reasonable, compliant with applicable laws, regulations and contract
terms, and subject to applicable financial control systems.

As a result of the billing system internal audit procedures performed by
DCAA, the auditors concluded that, in their opinion, NOVA’s billing
system is inadequate in part for billing costs accumulated under
government contracts.

DCAA discussed the audit results with NOVA’s Chief of Operations on
July 30, 2003. The representative stated that NOVA has the
development of an indirect rate structure by the end of FY 2003 under
consideration, but does not have formal plans for accomplishing this
change.

We consider the contractor’s response to be inadequate and
recommend that NOVA be required to submit a detailed plan specifying
the billing system modifications and timing it will take to implement a
billing system that complies with the applicable Federal Acquisition
Regulations.

                                   18
                           Audits
This is the third audit conducted of NOVA since FY 2001. While our first
audit disclosed no significant deficiencies in the contractor’s
timekeeping and labor practices, the second audit did discover two
timekeeping deficiencies that were of concern. In light of their history,
we recommend that further scrutiny of NOVA’s billings be considered.

3. DCAA Report on Audit of Fiscal Year 2001 Incurred Costs of
DynCorp Information Technology (IT Segment), (Report 03-AUD-
09-10), September 26, 2003

DCAA conducted this audit to determine allowability and the allocation
of direct and indirect costs and to establish audit-determined indirect
cost rates for December 29, 2000 through December 27, 2001.

DCAA’s audit disclosed no material findings that would impact FCC con-
tracts.

III. Program audits assess whether the objectives of both new
and ongoing programs are proper, suitable or relevant, and also
assess compliance with laws and regulations applicable to the
program. This particular type of audit also serves to determine
whether management has reported measures of program
effectiveness that are valid and reliable.

1. Special Review of Workplace Violence: Data Collection and
Analysis, (Report 02-AUD-04-15), April 17, 2003

The OIG has completed an employee survey as part of our assessment
of the workplace violence prevention program at the FCC. The
objectives of this survey were:

      (1) Obtain data to confirm conclusions reached in the risk
      assessment we conducted last year.
      (2) Obtain baseline measures that the FCC could use to evaluate
      its implementation of a comprehensive program of violence
      prevention.
      (3) Determine how certain issues and concerns reported by FCC
      employees compared to those reported at other organizations.

                                   19
                          Audits
The results of the survey appear to confirm many of the conclusions
reached in the risk assessment (OIG Report No. 01-AUD-06-23,
January 15, 2002).

While most employees report feeling safe from violence, over 10%
have real fears about personal safety and incidents of workplace
violence.

Our report recommended that management use the results of this
survey in designing new policies and procedures. We also
recommended the Commission continue to give the work group their
full support in moving forward in creating a comprehensive program of
violence prevention. Finally, we recommended that the Commission
repeat this survey, or a portion of it, on a regular basis to evaluate
improvements in employee safety and security and changes in
employee attitude on workplace violence issues.

2. Follow-up Audit of the Commission’s Purchase Card
Program, (Report 01-AUD-09-37), May 28, 2003

On May 6, 1999, the OIG issued a report No. OIG-98-06 entitled
“Report on Audit of the Federal Communications Commission Purchase
Card Program.” In that report, OIG concluded that Commission
purchase cardholders were not complying with policies and procedures
concerning purchase card use.

The objective of this follow-up audit was to assess compliance with
purchase card program policies and procedures and determine if the
FCC took appropriate corrective action.

The OIG found the Purchase Card Program policies and procedures to
be adequate, however, our audit disclosed that significant internal
control weaknesses exist. We made recommendations that, in our
opinion, would increase management control and reduce the risk for
abuse within the Commission’s purchase card program.




                                  20
                                       Audits
Figure 2:                                                  Figure 3:

            Compliance with Form C-1                            Non-Compliance w ith Form C-1 Checklist
                   Checklist*                              35
                                                           30
                                                           25
                                                           20
                                                                                                      Series1
                                                           15
                                             1
     49                                      2             10
                                50
 Compliance                                                 5
                            Non-Compliance
                                                            0
                                                                       1                2
                                                                 Not Completed    Late Approval

*The C-1 Checklist is the form all employees are required to complete after every purchase card transac-
tion.
Figure 2: Fifty (50) instances of ninety-nine (99) randomly audited transactions were non-compliant with
the Commission’s Form C-1 Checklist, FCC Form A-526, completion requirement.
Figure 3: Thirty-two (32) instances were for the required Form C-1 Checklist not being completed and
eighteen (18) instances were for the Form C-1 Checklist being completed and authorized by
approving officials after cardholders had purchased goods or services.

3. Quality Control Review of the Federal Trade Commission
(FTC) OIG, June 25, 2003

The Executive Council on Integrity and Efficiency (ECIE) requires a
periodic review of each member OIG’s system of quality control. We
conducted this review for the FTC OIG during the semiannual reporting
period.

4. Report on Audit of the E-Rate Program at
Albermarle Regional Library System, (Report 02-AUD-02-04-16),
August 27, 2003

The objective of this audit was to assess the beneficiary’s compliance
with the rules and regulations of the USF program and to identify areas
in which to improve the program. Albermarle Regional Library System
is comprised of seven (7) library sites that are located in four (4)
counties within a rural region of North Carolina. The period of our


                                                   21
                          Audits
review was from July 1, 1999 to June 30, 2000, which comprised
Funding Year 2 of the E-Rate program. Funding disbursements amount
to approximately $24,000, of which 81% was for internal connections
and 19% was for telecommunication services.

The audit found the beneficiary was compliant with the program
requirements and found no material control weaknesses relative to the
program.

5. Report on Audit of Auctions Information Technology Capital
Investment Practices, (Report 02-AUD-03-12), September 12, 2003

OIG has completed an audit of auctions information technology capital
investment practices to identify factors contributing to the continual
rise in Auctions’ fiscal year program costs and to assess the FCC’s
information technology capital investment practices.

The OIG initiated this audit due to the concerns from the Office of
Management and Budget (OMB) about the increasing Auctions’ costs in
the past several years.

To identify the factors contributing to the rising Auctions program
costs, the audit team reviewed and analyzed Auctions fiscal year
expenditure data (FY 1994-2002), budget requests (FY 1994-2003) and
source purchasing documentation.

Additionally, an audit survey was distributed to FCC Bureaus and
Offices outside of the Wireless Telecommunications Bureau (WTB) to
gain an understanding of their use and management of Auctions funds.

The audit found several areas where the management effectiveness for
Auctions program costs could be improved.

These three are:
        • Reevaluate Auctions Funding Justifications for major FCC
            systems
        • Use consistent Auctions Cost Accounting Methods
        • Establish an effective Capital Investment Program


                                  22
                           Audits
Implementation of the above recommendations should result in
uniform, centralized procedures for the selection, control and
evaluation of its IT investments.

6. Survey of System Development Life Cycle (SDLC)
Implementation, (02-AUD-01-03), September 29, 2003

The objective of this survey is to determine the extent of use and
compliance with the SDLC at the Commission. Audit surveys are
conducted to gather information on a program, activity, or function of
the FCC and to identify areas that may need improvement. The
outcome of an audit survey is to close the survey with a memorandum
or continue into a detailed audit.

To accomplish the objectives of this survey, the OIG auditor used the
following methodology. An auditor reviewed SLDC information,
including documentation policy, practices, roles and responsibilities,
templates, checklists, and other user guides. Also, an auditor
interviewed employees in other Bureaus and Offices. ITC
documentation related to the SDLC was analyzed. Federal government
documents were reviewed. Finally, the OIG auditor interviewed
contractors involved in reviewing the SDLC during OIG audits.

Based on the results of this survey, the OIG will not perform any
additional audit work on the use of the SDLC in the Commission.
Instead, the OIG will focus on performing SDLC work as part of its
future information system (IS) audits. Further audit work by the OIG
solely on SDLC usage would not likely duplicate the audit work
currently being done on IS and financial audits. Therefore, we
conclude that audit coverage planned in future application reviews will
provide sufficient oversight of SDLC implementation.

7. Survey of FCC Initiatives for Implementing the Government
Performance and Results of (GPRA) of 1993, (00-AUD-01-07),
September 30, 2003

The objective of this survey was to update our understanding of the
FCC’s methodology for developing GPRA requirements, assess the


                                   23
                           Audits
FCC’s compliance with GPRA, review required reporting, and to identify
areas in which additional audit work should be performed.

Based on the results of the survey, we found that, while weaknesses
existed in the FCC’s implementation of GPRA, it would be more efficient
to focus on GPRA work as part of the annual financial statement audits
and to audit the FCC’s Performance Activity Report for fiscal year 2004,
which will be submitted in fiscal year 2005.

IV. Work-In-Process– Reports on the following audits were not
completed as of the date of the publication of this report.

1. Audit of the Commission’s FY 2003 Financial Statement

This audit was performed as part of our commitment to support
management’s efforts to align the FCC’s financial accounting and
reporting systems with related accounting principles, federal laws and
regulations, and policy guidelines. This is not only important internally
to the FCC’s operations, but is also necessary to the audit of the
Consolidated Financial Statements of the United States government.
The Treasury Department requests that non-CFO agencies, such as the
FCC, verify financial data submissions every year. The FCC does this
according to Generally Accepted Accounting Principles (GAAP) of the
federal government in order to verify its Federal Agencies’ Centralized
Trial-Balance System (FACTS) transmissions. The objective of this
audit is to provide an opinion on the FY 2003 financial statements.

At the direction of the Department of Treasury, FCC prepares
consolidated financial statements in accordance with Office of
Management and Budget (OMB) Bulletin No. 01-09, Form and Content
of Agency Financial Statements, and subjects them to audit. The
financial statement is being audited in accordance with Government
Auditing Standards issued by the Comptroller General of the United
States. Under a contract monitored by the OIG, Clifton Gunderson LLP,
an independent public accounting firm, is performing the audit of the
FCC’s FY 2003 financial statements.

At the close of this semi-annual period, Clifton Gunderson LLP and OIG

                                    24
                            Audits
auditors completed comprehensive planning, substantially completed
testing of internal controls and reviewed the March and June quarterly
agency financial statement compilations. Upon receipt of the year-end
financial statements in early November, substantive testing of
September balances will commence. The OIG expects to issue the
Independent Auditors' Reports which include the audit opinion in the
second quarter of FY 2004.

2. Audit of Loan Portfolio and Related Activity

The objective of this audit is to assess the transition of the portfolio
from the FCC to a loan service provider environment. To mitigate
concerns regarding past contractor operations and to prepare auditable
balances the Commission contracted with a public accounting firm to
review and recalculate loan balances since inception.

3. Audit of Financial Management of Auction Proceeds

The FCC has express authority to employ competitive bidding
procedures to choose from applications for initial licenses by using an
auction process and to offset the cost of these competitions with
auction proceeds. This audit is being conducted to evaluate any
potential duplicative efforts in the operation and management of the
auction’s process.

4. Survey of Telecommuting Program

The purpose of this project is to survey managers and supervisors
about their employees’ participation and obtain input on perceived
benefits, complications, and shortcomings they have experienced or
observed since the Commission’s Flexible Workplace Program was
established.

5. Audit of the Physical Security of Commission Facilities

The objective of this audit is to identify vulnerabilities and opportunities
for improvements in physical security posture at Commission facilities.
An entrance conference was held in August and work is ongoing.

                                     25
                           Audits
6. Audit of the Physical Security at Gettysburg Commission
Facility

The objective of this audit is to identify vulnerabilities and
opportunities for improvements in physical security posture at the
Commission’s facility in Gettysburg, Pennsylvania.

We issued a draft audit report on this audit to FCC management on
August 6, 2003 and issued a revised draft report on October 6, 2003.
The draft report is under management review.

7. Survey of the Universal Service Fund (USF) High Cost
Program

We are conducting an audit survey of this program to identify areas of
risk, potential vulnerabilities and compliance with program
requirements and regulations. The result of the survey will be used to
design an oversight program to ensure the High Cost Program is not
subject to fraud, waste and abuse.

8. Audit of Revenue Accounting Management Information
System (RAMIS) Application Controls

The objective of this audit is to determine the extent and effectiveness
of application controls in RAMIS. RAMIS is the Commission’s system of
record for revenue transactions, and is the financial system that
supports application and regulatory fees, spectrum allocation loan
portfolio management, accounting for auction proceeds, accounting for
enforcement actions and other accounts receivable of the Commission.

We issued a draft report to FCC management on September 30, 2003.
The draft report is under management review.

9. FY 2003 FISMA Evaluation

The Federal Information System Management Act (FISMA) focuses on
the program management, implementation and evaluation aspects of
agency security systems. FISMA requires that Inspector Generals

                                   26
                           Audits
perform an annual independent evaluation of agency information
security programs by examining the security programs and practices.

To accomplish this objective, we will test the effectiveness of security
controls for an appropriate subset of the Commission’s systems. The
information report required by the Office of Management and Budget
was issued on September 22, 2003. We will issue a final report on this
audit in the next reporting period.

10. Audit of Human Capital Management

The primary objectives of this audit are: (1) determine if the
Commission has implemented a workforce planning strategy that
complements both the FCC strategic plan and the GPRA performance
plans; (2) identify human capital management practices and compare
those to recognized industry and government standards; and (3)
determine the status of the Commission’s knowledge management
plan.




                                   27
                Management
♦ External Audit of Quality Control

The next peer review of the FCC OIG is scheduled for March, 2004. It
will be performed by the Equal Employment Opportunity Commission
(EEOC).

♦ Specialized Training and Activities

In our continuing effort to expand the expertise of our audit staff, two
auditors attended the 10 day, non-criminal investigator training at the
Federal Law Enforcement Agency in Georgia.

♦ Report Availability

The OIG audit and other types of reports can generally be obtained via
the Internet from the OIG web page located on the FCC website at
http://www.fcc.gov/oig. However, OIG reports containing sensitive or
proprietary information will be restricted to specific individuals and
organizations with a need to know the detailed information.

♦ Internships

The OIG welcomes college interns during the fall, spring and summer.
Most of these students take their internships for credit. Recent interns
have come from schools across the country, including Hamilton College
UC Berkeley, American University, Georgetown University and DePauw
University.

These internships prove to be a rewarding experience for both parties.
Students leave with a good understanding of how a government agency
is run, and they have the opportunity to encounter the challenges
involved in governance and regulation. In turn, the office benefits from
the students’ excellent work performance that reflects their youth and
exuberance.

For more information about internships in OIG, go to the web page
located on the FCC site at http://www.fcc.gov/oig/oiginternships.html.


                                    28
                Investigations
◊   Overview

Investigative matters pursued by this office are generally initiated as a
result of allegations received through the OIG hotline or from FCC
managers and employees who contact the OIG directly. Investigations
may also be predicated upon audit or inspection findings of fraud,
waste, abuse, corruption or mismanagement by FCC employees,
contractors and/or subcontractors. Upon receipt of an allegation of an
administrative or criminal violation, the OIG usually conducts a
preliminary inquiry to determine if an investigation is warranted.
Investigations may involve possible violations of regulations regarding
employee responsibilities and conduct, federal criminal law, and other
regulations and statutes pertaining to the activities of the Commission.
Investigative findings may lead to criminal or civil prosecution, or
administrative action.

The OIG also receives complaints from the general public, both private
citizens and commercial enterprises, about the manner in which the
FCC executes its programs and oversight responsibilities. All
complaints are examined to determine whether there is any basis for
OIG audit or investigative action. If nothing within jurisdiction of the
OIG is alleged, the complaint is usually referred to the appropriate FCC
bureau or office for response directly to the complainant. In many
instances where the nature of the complaint does not fall within
jurisdiction of the OIG, a copy of the response is also provided to the
OIG. Finally, matters may be referred to this office for investigative
action from other governmental entities, such as the General
Accounting Office, the Office of Special Counsel or congressional
offices.

◊   Activity During This Period

Thirty cases were pending from the prior period. Twenty-six of those
cases involve the Commission’s Universal Service Fund (USF) program
and have been referred to the Federal Bureau of Investigation (FBI)
and/or the Department of Justice and the investigations are ongoing.
An additional eight complaints were received during the current
reporting period. Over the last six months ten cases have been closed.

                                    29
                 Investigations
A total of twenty-eight cases are still pending, twenty-six of which
relate to the USF program. The OIG continues to monitor and
coordinate activities regarding those twenty-six investigations. The
investigations pertaining to the pending two non-USF cases are
ongoing.

◊   Statistics

    Cases pending as of March 31,
    2003…………………………………………………………………………………………………30

    New Cases…………………………………………………………………………………………8

    Cases Closed……………………………………………………………………………………10

    Cases pending as of September 30, 2003……………………………………..28

SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

The OIG initiated an inquiry into allegations of the possible release of
non-public information related to the Commission’s consideration of the
EchoStar/DirecTV merger. It was alleged that staff recommendations
opposing the merger had been released to sources outside of the
Commission. The proposed merger was also under consideration by
the Department of Justice (DOJ). Information pertaining to the staff
recommendations as well as the DOJ review appeared in the press.
Specifically, the initial article reported that a draft of the
recommendations was being reviewed by Commission personnel and
that DOJ was preparing to formally deny or reject the merger, and that
indications were that the staff did not suggest any circumstances under
which the merger could be approved. Subsequent articles likewise
made reference to the reviews at the Commission and DOJ and did not
contain any real substantive information concerning the matter. Based
on the limited nature of the information that appears to have been
released, this office concluded that the information was not released in
written form but rather was released orally. Further, because of the
reported information, this office could not determine the source or
sources of the disclosure. Accordingly, the matter has been closed.

                                   30
                Investigations
The OIG initiated an inquiry into allegations of the possible release of
nonpublic information related to the Commission’s consideration of the
cable ownership limits. The alleged disclosure related to staff
recommendations concerning cable ownership limits which were
reported in a press article. Specifically, the information in question
concerned a reference to a 45% ownership limit. As a result of the
investigation, the OIG concluded that in light of the apparently limited
nature of the disclosed information, the information was disclosed
verbally and not in written form. Also, it was determined that at the
time of the article, the ownership cap was still in the discussion stages
and the 45% figure had not been definitively determined. Accordingly,
in light of the limited nature of the allegedly disclosed information as
well as the fact that the information appears to have been disclosed
orally, this office is unable to conclusively find that any non-public
information was disclosed let alone the source of information. The
matter has been closed.

The OIG initiated an investigation into allegations that a supervisory
Commission employee had improperly used his computer workstation
to access pornographic and other non-work related sites in violation of
Commission regulations and provisions of the Code of Federal
Regulations concerning use of government equipment and use of
official time. Through investigation the employee was found to have
accessed the sites in question in violation of the applicable standards.
Disciplinary action has been taken against the employee and the
matter has been closed.

The OIG initiated an inquiry into allegations by a consumer that
Commission employees failed to properly process his complaint and
improperly refused to furnish a copy of the complaint to him upon
request. Through investigation it was determined that the employees
who participated in the processing of the complaint did not act
improperly and thus their actions did not constitute misconduct. The
matter has been closed.

The OIG initiated an inquiry into allegations that Commission
employees had mishandled a petition by improperly filing the document
and failing to take corrective action when notified of the error.

                                    31
                Investigations
Through investigation, it was determined that the document had
initially been filed improperly. The petition was subsequently filed
correctly. The OIG found no evidence that the erroneous filing or the
delay in taking corrective action was the result of employee
misconduct, and the matter was closed.

The OIG initiated an inquiry into allegations that non-public information
relating to the Commission’s consideration of procedures governing the
use of satellite earth stations aboard vessels was improperly released.
Specifically, it was alleged that a draft of the notice of proposed
rulemaking related to the procedures in question was released without
authorization to someone outside of the Commission. Through
investigation, it was ascertained that the draft document, which had
been circulated among other federal agencies for comment, had been
released to someone in the private sector. The document appears to
have been released approximately one month after it had been
circulated to other agencies and approximately one week after the
comments were due from the other federal agencies. Based on the
information derived, particularly the timing of the apparent release, the
OIG was unable to narrow down the source of the release as being
within the Commission. Accordingly, the matter has been closed.

The OIG initiated an inquiry into the alleged release of non-public
information involving the Commission’s consideration of total-element
long-run incremental cost methodology. This matter is currently
pending.

The OIG continues to coordinate and provide assistance to law
enforcement entities with respect to investigations pertaining to
infractions within the Universal Service Fund program of the
Commission.




                                   32
                     Legislation
∗   Overview

Pursuant to section 4(a)(2) of the Inspector General Act of 1978 (IG
ACT), as amended, our office monitors and reviews existing and
proposed legislative and regulatory items for their impact on the Office
of the Inspector General and the Federal Communications Commission
programs and operations. Specifically, we perform this activity to
evaluate their potential for encouraging economy and efficiency and
preventing fraud, waste and mismanagement.

∗   Legislative Activity During This Period

The Counsel to the IG continued to monitor legislative activities
affecting the activities of the OIG and the FCC.

During this period, this office continued to monitor legislation and
legislatively related proposals, which directly or indirectly impact on the
ability of Designated Federal Entity IGs to function independently and
objectively. As noted in our last report, the primary piece of legislation
monitored during this period was the legislation granting statutory law
enforcement authority to certain designated OIGs. This office was not
among the designated OIGs under the legislation. However, the
legislation is being monitored with respect to any possible indirect
impact that it may have on this office’s operations. Under the
legislation, there are peer review requirements for the designated OIGs
that may have an impact on the non-designated OIGs. In this vein,
this office is working with and participating in discussions with other
OIGs with respect to, among other things, the feasibility of developing
a peer review process for non-designated OIGs.




                                    33
                       IG Hotline
HOTLINE CALLS

During this reporting period, the OIG Hotline Technician received 267
hotline calls to the published hotline numbers of (202) 418-0473 and
1-888-863-2244(toll free). The OIG Hotline continues to be a vehicle
by which Commission employees and parties external to the FCC can
contact the OIG to speak with a trained Hotline Technician. Callers
who have general questions or concerns not specifically related to the
missions or functions of the OIG office are referred to the FCC National
Call Center (NCC) at 1-888-225-5322. In addition, the OIG also refers
calls that do not fall within its jurisdiction to such other entities as other
FCC offices, federal agencies and local or state governments.
Examples of calls referred to the NCC or other FCC offices include
complaints pertaining to customers’ phone service and local cable
providers, long-distance carrier slamming, interference, or similar
matters within the program responsibility of other FCC bureaus and
offices.




          Hotline Calls Record
        April 1-September 30, 2003
              Total Calls: 267
                              4      12
                                                     63     OIG Staff

                                                            Other FCC
                                                            Offices
                                                            Other Federal
                                                            Agencies
                                                            Local/State
                                                            Gov't. or Police
                                                            CGB
                                                     10
           178




                                      34
Report Fraud, Waste or Abuse to:


      Office of the Inspector General
      Federal Communications Commission




                                                 CALL
                                         Hotline: (202) 418-0473
                                                    or
                                             (888) 863-2244
                                            www.fcc.gov/oig



 You are always welcome to write or visit.
      ABC         OPER        ABC
        2          0           2


      GHI                     TUV
        4          1           8


 OPER       GHI        PQRS        DEF
  0          4           7          3

                   Federal Communications Commission
                            Portals II Building
                    445 12th St., S.W. –Room #2-C762

                                          35
                   Specific Reporting Requirements
                     of the Inspector General Act

The following summarizes the Office of Inspector General response to the 12 specific
reporting requirements set forth in Section 5(a) of the Inspector General Act of 1978,
as amended.

1. A description of significant problems, abuses, and deficiencies relating to the
   administration of programs and operations of such establishment disclosed by such
   activities during the reporting period.

Refer to the Section of the semiannual report entitled “Universal Service Fund” on pages
3 through 14.

2. A description of the recommendations for corrective action made by the Office during
   the reporting period with respect to significant problems, abused, or deficiencies
   identified pursuant to paragraph (1).

Refer to the Section of the semiannual report entitled “Universal Service Fund” on pages
3 through 14.

3. An identification of each significant recommendation described in previous
   semiannual reports on which corrective action has not yet been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions and convictions
   which have resulted.

Twenty-six cases associated with the Commission’s Universal Service Program have been
referred to the Department of Justice. Four individuals have pled guilty and are awaiting
sentencing.

5. A summary of each report made to the head of the establishment under section (6)(b)
   (2) during the reporting period.

No report was made to the Chairman of the FCC under section (6)(b)(2) during the
reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the
office during the reporting period, and for each audit report, where applicable, the total
dollar value of questioned costs (including a separate category for the dollar value of
unsupported costs) and the dollar value of recommendations that funds be put to better

                                             36
                    Specific Reporting Requirements
                      of the Inspector General Act

use. Each audit report issued during the reporting period is listed according to subject
matter and described in part II, above.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the reporting period is
summarized within the body of this report.

8. Statistical tables showing the total number of audit reports with questioned costs and
   the total dollar value of questioned costs.

The required statistical table can be found at Table I to this report.

9. Statistical tables showing the total number of audit reports with recommendations that
   funds be put to better use and the total dollar value of such recommendations.

The required statistical table can be found at Table II to this report.

10. A summary of each audit report issued before the commencement of the reporting
    period for which no management decision has been made by the end of the reporting
    period (including the date and title of each such report), an explanation of the reasons
    why such a management decision has not been made, and a statement concerning the
    desired timetable for achieving a management decision on each such report.

No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised management
    decision made during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
    General is in disagreement.

No management decisions fall within this category.




                                              37
OIG Reports With Questioned Costs
Table I.
 Inspector Gen-
  eral Reports          Number of        Questioned   Unsupported
With Questioned          Reports           Costs         Costs
      Costs
  A. For which no
 management deci-
sion has been made          -                -             -
of the reporting pe-
        riod.
 B. Which were is-
sued during the re-
  porting period.           -                -             -

        Subtotals
                            -                -             -
          (A+B)
C. For which a man-
 agement decision
was made during the         -                -             -
 reporting period.
 (i) Dollar value of
  disallowed costs          -                -             -
 (ii) Dollar value of
     costs allowed          -                -             -

  D. For which no
 management deci-
sion has been made          -                -             -
by the end of the re-
  porting period.
 Reports for which
no management de-
  cision was made           -                -             -
within six months of
      issuance.

                                    38
            OIG Reports With Recommendations That Funds
                         Be Put To Better Use
Table II.
 Inspector General Reports
  With Recommendations              Number of Reports   Dollar Value
 That Funds Be Put To Bet-
           ter Use
 A. For which no management
 decision has been made by the
commencement of the reporting               -                -
            period.
B. Which were issued during the             -                -
       reporting period.

                     Subtotals              -                -
                       (A+B)
C. For which a management de-
cision was made during the re-
        porting period.                     -                -
   (i) Dollar value of recommen-
dations that were agreed to by
management.                                 -                -
   -Based on proposed manage-               -                -
ment action.
    -Based on proposed legisla-             -                -
tive action.
   (ii) Dollar value of recommen-
dations that were not agreed to
by management.                              -                -
 D. For which no management
 decision has been made by the
  end of the reporting period.              -                -
For which no management deci-
sion was made within six months
          of issuance.                      -                -

                                       39
